UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




              Audit of the NLRB
   Fis c a1 Year 2005 Financial Statements


                   Report No. OIG-F- 10-06-01




                                                December 2005
INSPECTOR GENERAL




                        WASHINGTON, DC 20570

December 16, 2005

I hereby submit the Audit of the National Labor Relations Board's (NLRB)Fiscal
Year (FY) 2005 Financial Statements, Report No. OIG-F- 10-06-01. The audit
was required by the Accountability of Tax Dollars Act of 2002. On November
10, 2005, we transmitted Carmichael, Brasher, Tuvell & Company's (CBTC)
audit opinion, which was included in the Agency's FY 2005 Performance and
Accountability Report. This document is the Office of Inspector General's
comprehensive report on our efforts related to auditing the Agency's financial
statements and includes the audit report, management letter, NLRB's financial
statements and related notes, and management's responses to both the audit
report and management letter.

The Accountability of Tax Dollars Act of 2002 requires NLRB to prepare and
submit to the Congress and the Director of the Office of Management and
Budget (OMB) an audited financial statement. We contracted with CBTC to
perform the audit. The objectives of the audit were to issue an opinion on the
fairness of the financial statements, obtain an understanding of the Agency's
internal controls, and test compliance with laws and regulations that could
have a direct and material effect on the financial statements.

The audit was conducted by CBTC in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and OMB
Bulletin No. 0 1-02, Audit Requirements for Federal Financial Statements. The
audit results were:

      The financial statements present fairly, in all material respects, the
      financial condition and activity of the NLRB as of and for the years
      ending September 30,2004 and 2005.

      No material weaknesses in controls over financial reporting were
      identified.
      One reportable condition involving the need for the Agency to implement
      a disaster recovery plan was identified.

      No instances of non-compliance with laws and regulations that were
      required to be reported under Government Auditing Standards or OMB
      Bulletin 0 1-02 were identified.

A management letter, included on page 6 of this report, identified two other
areas in which management could improve controls. These areas involved
controls over the Momentum financial system and intragovernmental
transactions documentation.

CBTC's independent auditors' report included one recommendation for
improving information technology controls and CBTC's management letter
contained two additional recommendations. The management letter also
provided information on the status of open prior year recommendations.

The Director of Administration agreed with the finding and recommendation
made in the audit report and the findings and recommendations made in the
management letter. Comments on the audit report and management letter are
presented in their entirety as appendixes to this report.



                                  / ~ a n e E. Altenhofen I
                                     Inspector General
                                 TABLE OF CONTENTS


Independent Auditor's Report            ................................................................1
Management Letter        ............................................................................... .6
NLRB Financial Statements ..................................................................10

Notes to Principal Statements ...............................................................15

APPENDIXES

   A. Memorandum from the Director of Administration, Response to
      Draft Audit Report - NLRB Fiscal Year 2005 Financial Statements,
      dated October 3 1, 2005

   B. Memorandum from the Director of Administration, Comments on
       Draft Management Letter on Audit of NLRB's FY 2005 Financial
       Statements, dated December 12, 2005
                                                                  Carmichael
                                                           Brasher Tuvell
      C E R T I F I E D     P U B L I C     A C C O U N T A N T S  &Comnan~,PC



INDEPENDENT AUDITORS' REPORT


To Jane E. Aftdofen, Inspector General
National Labor Relations Board

The Accountability of Tax Dollars Act of 2002 made the National Labor Relations Board (NLRB)
subject to the annual financial statement reporting requirements of the Chief Financial Officers Act of
1990, which requires agencies to report annually to Congress on their financial status and any other
information needed to fairly present the agencies' financial position and results of operations.

The objectives of the audit are to express an opinion on the fair presentation of NLRB's principal
financial statements, obtain an understanding of the Agency's internal control, and test compliance with
laws and regulations that could have a direct and m a t e d effect on the financial statements.

We have audited the consolidated balance sheet of NLRB as of September 30,2005 and 2004, and the
related consolidated statements of net cost, changes in net position, statement of financing, and the
combined statement of budgetary resources for the years then ended. These fiaancial statements are the
responsibility of NLRB7s management. Our responsibility is to express an opinion on these financial
statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 01 -02, Audit Requirements for Federal Financial Statements. These standards require that
we plan and perform the audit to obtain reasonable assurance about whether the fmancial statements are
free of material misstatements. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating the overall
fmancial statement presentation. We believe that our audit provides a reasonable basis for our opinion.

OPINION ON F'INANCIAL STATEMENTS

In our opinion, the financial statements referred to above present fairly, in all material respects, the
assets, liabilities, and net position of NLRB, as of September 30, 2005 and 2004; and the net cost,
changes in net position, budgetary resources, reconciliation of net cost to budgetary resources and
financing for the years then ended in conformity with accounting principles generally accepted in the
United States of America.
As discussed in Note 18 to the financial statements, a FY 2005 obligation totaling approximately
$1.5 million is currently under review by NLRB management and the NLRB Office of Inspector
General. The ultimate outcome of this matter cannot presently be determined. Accordingly, no
provision for any liability that may result has been made in the accompanying financial
statements.

REPORT ON INTERNAL CONTROL

In planning and performing our audit, we considered NLRB's internal control over financial
reporting by obtaining an understanding of the Agency's internal controls, determined whether
internal controls had been placed in operation, assessed control risk, and performed tests of
controls in order to determine our auditing procedures for the purpose of expressing our opinion
on the financial statements. We limited our internal control testing to those controls necessary to
achieve the objectives described in OMB Bulletin No. 01-02. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers' Financial
Integrity Act of 1982 (FMFIA), such as those controls relevant to ensuring efficient operations.
The objective of our audit was not to provide assurance on internal control. Consequently, we do
not provide an opinion on internal control.
Our consideration of the internal control over financial reporting would not necessarily disclose
all matters in the internal control over financial reporting that might be reportable conditions.
Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control that, in o w judgment, could adversely affect the Agency's
ability to record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. Material weaknesses are reportable conditions in which
the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that material misstatements in relation to the audited fiiancial
statements may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Because of inherent limitations in internal
controls, misstatements, losses, or noncompliance may nevertheless occur and not be detected.
We noted a matter involving the internal control and its operation that we consider to be a
reportable condition described in Exhibit A. However, the reportable condition is not believed to
be a material weakness.

A separate letter will be provided to management regarding other matters that came to our
attention as a result of our audit.

We considered NLRB's internal control over Required Supplementary Information (RSI) by
obtaining an understanding of the Agency's internal control, determining whether these internal
controls had been placed in operation, assessing control risk, and performing tests of controls as
required by OMB Bulletin No. 01-02. The objective of our audit was not to provide assurance
on these internal controls. Accordingly, we do not provide an opinion on such controls. With
respect to internal control related to performance measures reported in the Management
Discussion and Analysis (MD&A) section of the Performance and Accountability Report, we
obtained an understanding of the design of significant internal controls relating to the existence
and completeness assertions, and determined whether these internal controls had been placed in
operation as required by OMB Bulletin No. 0 1-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and, accordingly, we do not
provide an opinion on such controls.

REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS

The management of NLRB is responsible for complying with laws and regulations applicable to
the Agency. As part of obtaining reasonable assurance about whether the Agency's financial
statements are free of material misstatement, we performed tests of its compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain other laws and
regulations specified in OMB Bulletin No. 01-02, including the requirements referred to in the
Federal Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of
compliance to these provisions and we did not test compliance with all laws and regulations
applicable to NLRB.

The results of our tests of compliance with the laws and regulations discussed in the preceding
paragraph disclosed no instances of noncompliance with laws and regulations that are required to
be reported under Government Auditing Standards or OMB Bulletin No. 01-02.

Providing an opinion on compliance with laws and regulations was not an objective of our audit
and, accordingly, we do not express such an opinion.

REPORT ON COMPLIANCE WITH THE FEDERAL FINANCIAL MANAGEMENT
IMPROVEMENT ACT OF 19%

We have examined NLRB's compliance with the requirements of FFMIA as of September 30,
2005. These requirements include implementing and maintaining financial management systems
that substantially comply with the Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard General
Ledger ak the transaction level. Management is responsible for the NLRB's compliance with
these requirements. Our responsibility is to report whether the Agency's financial management
systems substantially comply with these requirements.

 Our examination was conducted in accordance with the attestation standards established by the
 American Institute of Certified Public Accountants; Government Auditing Standards, issued by
the Comptroller General of the United States; and OMB Bulletin No. 01-02, Audit Requirements
for Federal Financial St~ternents.These standards include examining, on a test basis, evidence
 about NLRB's compliance with those requirements, including FFMIA Section 803(a)
requirements, and performing such other procedures as we considered necessary in the
 circumstances. Our examination does not provide a legal determination on NLRB's compliance
 with specified requirements. The results of our tests of compliance with FFhiIIA disclosed no
 instances in which NLRB's financial management systems did not substantially comply with
 Federal financial management system requirements, applicable Federal accounting standards, or
the United States Government Standard General Ledger at the transaction level.
OTHER ACCOMPANYING INFORMATION

Our audit was conducted for the purpose of forming an opinion on the financial statements of
NLRB taken as a whole. The accompanying financial mfomation is not a required part of the
financial statements.

The other accompanying mfomation included in the MD&A and RSI sections of the
Performance and Accountability Report are required by the Federal Accounting Standards
Advisory Board and OMB Circular A- 136, Financial Reporting Requirements. We have applied
limited procedures, which consisted principally of inquiries of management regardmg the
methods of measurement and presentation of the information. We did not audit the other
accompanying information and, accordmgly, do not express an opinion or any other form of
assurance on it.

T h report is intended solely for the information and use of the management of NLRB, the OMB
and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.

CARMICHAEL, BRASHER, TUVELL & COMPANY, P C .




Atlanta, Georgia
October 3 1,2005
CURRENT 17EAR REPORTABLE CONDITION

Information Technology

Federal information systems are required to conform to standards set forth by both OMB and the
National Institutes of Science and Technology (NIST). NIST Special Publication 800 establishes
many of the minimum information systems requirements for Federal agencies. Certain
conditions related to NLRB's information technology hnction were identified that could
adversely impact the Agency's ability to accumulate, process, and report information critical to
NLRB7smission and programs. The following general condition was noted during both the FY
2005 and FY 2004 audits:

       A disaster recovery plan has not yet been implemented.

The specifics of the findings have been presented to management NLRB is actively working to
remediate this condition.

Recommendation

We recommend that the Chief Information Officer implement a disaster recovery plan to assure
compliance with NIST standards.

Manapement's Response

We are in agreement with this recommendation. The CIO has budgeted funds in FY 2006 to
initiate a disaster recovery plan. The expected completion date for this project is the fourth
quarter of FY 2006.
                                                               Carrnichael
                                                        Brasher Tuvell
  C E R T I F I E D     P U B L I C      A C C O U N T A N T S  8iComoanp.PC



MANAGEMENT LETTER


To Jane E. Altenhofen, Inspector General
National Labor Relations Board


We audited the financial statements (consolidated balance sheet, and the related statements of net
cost, changes in net position, financing and combined statement of budgetary resources, hereinafter
referred to as 'financial statements7+)of the National Labor Relations Board (NLRB) as of and for
the years ended September 30, 2005 and 2004, on which we issued an unqualified opinion dated
October 3 1,2005. In planning and performing our audit of the financial stxtements of the NLRB, we
considered its internal control structure in order to determine our audit procedures for the purpose of
expressing our opinion on the financial statements and not to provide assurance on the internal
control structure. We have not considered the internal control structure since the date of our report.

l h m g our audit, we noted certain matters involving the internal control structure and other
operational matters that are presented in this report for your consideration. These issues and
recommendations, all of which have been discussed with the appropriate members of NLRB's
management, are intended to improve the internal control structure or result in other opera-
efficiencies. Management agreed with our findings and recommendations and has already initiated
corrective action on most items.

The report is intended for the information and use of the management of the NLRB, the NLRB
Office of Inspector General, the Office of Management and Budget (OMB) and the U. S. Congress,
and is not intended to be and should not be used by anyone other than those specSed parties.

CARMICHAEL BRASHIER TUVELL & COMPANY

 L.rlc~l                  P. c .
      3 g w - 4 I~T'LYILC+C~.~
October 3 1,2005
#1- Momentum Financial Svstem

Condition
NLRB is a client-user of the Momentum financial system maintained and administered by the
National Business Center (NBC). An Independent Auditors' Report on the Momentum system
environment at NBC for the period October 1,2004 through July 31,2005, disclosed deficiencies in
certain general computer controls that directly f l e d NLRB. The report disclosed that:

      *    An NLRB account for a separated NBC employee had not been closed;
           The Momentum auditing log feature had not been enabled;
           The auditing feature of Oracle database tables was not enabled; and
           A generic system account was used to migrate files from test to production environments.
           The use of the account was not logged and reviewed to determine whether the use was
           authorized.

Cause
The Independent Auditors' Report, dated October 12, 2005, stated that NBC administers the
Momentum system environment and did not perform required control procedures. NLRB was not
aware of these deficiencies and could not take appropriate corrective action during the period under
audit.

Effect
Although the audit report indicated that the deficiencies have been corrected, NLRB data for the
period October 1, 2004 through July 31, 2005, was at increased risk for unauthorized modifications.
The compromise of the Momentum testing and production environments could have resulted in
changes to security settings and accounting maintenance tables without NLRB authorization or
knowledge.

Criteria
National Institute of Standards and Technology (NIST) Special hblication (SP) 800-53,
Recommended Security Controlsfor Federal I@ormation Systems, establishes guidance for federal
agencies when establishing security controls for information systems. NIST SP 800-53 states,

        "It is of paramount importance that responsible individuals within the organization
        understand the risks and other factors that could adversely affect their operations and
        assets. . . . The ultimate objective is to conduct the day-to-day operations of the
        organization and to accomplish the organization's stated missions with what OMB
        Circular A-130 defines as adequate security, or security commensurate with risk.,
        including the magnitude of harm resulting from the unauthorized access, use,
        disclosure, distuption, modification, or destruction of information."

The audit report included a list of client control mnsiderations. These are controls for which NLRB
is responsible. Such controls, if effectively implemented, could help provide for a more secure
system and data, a d augment or compensate for controls at NBC.

Recommendatim
We recommend NLRB's Finance Branch (Finance) Chief review the controls listed in the audit
report to ensure that all are properly implemented by NLRB.
Management Response
The Director of Administration agreed with this recommendation and stated that they have initiated
corrective action.

#2 - Intraeovemmental Transactions Documentation

Condition
Receipt of goods and services from other government agencies paid through the Intragovernmental
Payment and Collection System (IPAC) was not documented.

Cause
Finance records IPAC charged amounts against funds obligated for an agreement, but generally
lacks information to determine whether the charges are proper or correct. Finance has relied upon
individual NLRB offices to reconcile amounts charged against their obligated h d s with services
received under interagency agreements. Receiving reports documenting the receipt of goods and
services provided by other governmental agencies were not retained and forwarded to Finance for
review.

Effect
Finance is unable to determine the validity of IPAC transactions or whether goods and services were
received and accepted.

Criteria
Federal Acquisition Regulations, 48 CFR 46.601, state that agencies shall prescribe procedures and
instructions for the use, preparation, and distribution of material inspection and receiving reports and
commercial shipping documents and packing lists to evidence Government inspection and
acceptance.

Federal Acquisition Regulations, 48 CFR 46.501, state that acceptance shall ordinarily be evidenced
by execution of an acceptance certificate on an inspection or receiving report form or commercial
shipping document and packing list.

Recommendation
We recommend the Finance Chief require documentation of receipt of goods and services from the
ordering ofice for IPAC transactions.

Management Response
The Director of Administration stated that the Finance Chief has already instituted procedures
requiring proper documentation to support all P A C charges.

#3 - Prior Year Recommendations

Open Prior Year Reportable Conditions

Carrnichael, Brasher, Tuvell & Company's (CBTC) Fiscal Year 2004 Independent Auditors' Report,
dated November 1, 2004, included four recommendations. Actions remain to be completed on three
recommendations. One of these recommendations, to develop a disaster recovery plan, is reported in
CBTC's Fiscal Year 2005 Independent Auditors' Report, dated October 3 1,2005.
The remaining two open recommendations were to implement an intrusion-detection and response
program and a systematic policy for the storage, retrievability, retention, and disposal of Privacy Act
information. These two recommendations were not included in the 2005 auditor's report because
enough progress was made that these items are no longer considered reportable conditions.

Open Prior Year Management Letter

CBTC's Fiscal Year 2004 Management Letter, dated November 1, 2004, included four
recommendations. Actions remain to be completed on two recommendations. The first open
recommendation was for Finance to implement its plan to migrate the Regional Office Budget
System to Momentum by the end of Fiscal Year 2005. The Agency planned to implement this
migration and related training concurrently with migrating to a new eTravel system. The Agency
was informed by the eTravel system provider that the system would not be ready for implementation
in time for the office manager training scheduled for April, June, and August 2005. The Agency
decided that it would not be cost effective to conduct separate training for the two systems and plans
to implement this recommendation by September 2006.

The second open recommendation was to develop and implement internal procedures for debtors to
challenge debt and to establish regulations and delegations of authority for compromising or
terminating actions for the collection of debt. The Agency has developed internal procedures and
updated delegations of authority, and developed regulations covering debt collections. These
regulations await the Board's approval.

Management Response
The Director of Administration stated that once the eTravel system is available for Agency use, the
office managers will be provided training on both Momentum and eTravel at Headquarters. This is
expected to be completed in FY 2006.

The Director of Administration stated that they will continue efforts to obtain necessary approval of
regulations for compromising or terminating actions for the collection of debt.
Auditors' Reports and Financial Statements
Principal Statements

National Labor Relations Board
Consolidated Balance Sheet
As of September 30,2005 (CY)* and September 30, 2004 (PY)* fin dollms)
                                                                                 2005                        2004
                                                                                   (CY)                      (PY)

Assets
    lntrogovernmentd
         Fund bdonce with treawry (Nde 2)
       Invesiments, net (Note 3)
       Accoune receivable (Nde 5)
       Advances (Mote 4)
       Tod intragovemmenlal
       Accounts receioble, net (Note 5)
       Advances (Note 4)
       General property platti, and equipment, net (Note 6 and 10)
Total assets

Liabilities
    Intogovernmenid
       Accounts payoble (Note 7)
       Employee contributions and poyroll taxes
       FKA liability (Note 8 and 10)
       Custodialliability

Total InIragovernmental
       Accounls payable (Note 7)
       Estimated future FM liabiliiy (Note 8 ond 10)
       Accrued payroll and benefits
       Accrued annual leave (Note 8 and 10)
       Ba&pay settlement due to others (Wote 8 and 9)
       Custodial liability (Note 8 and 9)

   Total liabilities

Net position
       Unexpended appropriations
       Cumdotive results of operalions [Wote 10)
       Total net position
Total liabilities and net position

TY=Cwrenf Year, PY= Prior Year
                                            me arcomponying notes are on integrd part of these statements.
National Labor Relations Board
Consolidated Statement of Net Cost
As of September 30,2005         (CY)and September 30,2004 (PY)                         (in dolims)
                                                                             2005                              2004
                                                                                 (CY)                          (PY)

Program Costs:

Resolve representation cases
   Told Gross Cost (Hote 11 1

Resolve unfair kbor pradices
   Told Gross Cost (Note 11 l

Other
   Gross Costs
   Less: Earned Revenue
Total Gross Cost
Net Cost of Operations (Note 11)




                                   The accompanying nofes are on infegrol parf   of these boncid statements.
National Labor Relations Board
Consolidated Statement of Changes in Net Position
As of September 30,2005 (CY) and September 30,2004 (PY) [in doIIms)

                                  2005                2005                  2004               2004
                             Cumulative Results    Unexpended         Cumulative Results    Unexpended
                               of Operations      Appropriatioms        of Operations      Appropriations
                                   (CV)                (CY)                  (PY)               (PY)
Beginning Balances             $ (1$21 0,45 1)    $    7,979,219       $ (1 4,795,41 0)    $   11,764,532
Budgetary Fma~cingSources:
   Appropriations-rereived                 -           251,875,000
   Appropriationwsed              245,515,820         (245,515,820)         245,664,129        (245,664,129)
   Rescissions 8 cancelled
      appropriations                      -             (3,218,386)
Other Financing Sources:
   Imputed fincndng costs
       (Note 15)                    16,262,166
   Transfers out nifhout


Total Finanring Sources          261,777,986           3,140,794          261,327,568          (3,785,3 13)
Net Cost of Operations          (262,356,605)                  -         (261,742,609)                  -
   Net Change                        (578,619)                                 (415,041)
Ending Balaaes
                               -
                               $ (15,789,070)     $   11,120,013
                                                                        -
                                                                        $ (1 5,210,45 1)
                                                                                     -     $    7,979,219
National Labor Relations Board
Combined Statement of Budgetary Resources
As of September 30,2005 (CY) and September 30,2004 (PY) (in do!fms)
                                                                                2005                            2004
                                                                                  ICY)                          (PY)

Budgetary Resources:
   Budget authority:
      Appropriations received (Note 13)                                   S            251,875,000
   Unobligated balance:
      Begiming of period                                                                  4,841,158
   Spending authorii from offsetting collections:
       Earned
          Collected                                                                         191,943
          Receivable from Federal sources                                                    37.157
      Earned
   Recoveries of prior year obligations
   Permanently not available (Note 13)
   Total budgetary resources (Note 14)

Status of Budgetary Resources:
   Oblgations incurred:
      Direct
      Reimbursable
         Subtotal (Note 14)
   Unobligated babnce:
     Apportioned (Note 14)
     Exempt from cipportionment
   Unobligated bolance not available                                                      4,438,245
   Total status of budgetary resources                                    $         254,946,65        1

Relationship of Obligations to Outlays:
      Obtigated balance, net, beginning of period                         S             15,793,463
   Obligated bala~e,net, end of period:
      A(counts receivable                                                                    (37,157)
      Undelivered orders                                                                  6,180,990
      Accounts payable                                                                   12,624,924
   Outlays:
      Disbursements                                                                    245,810,694
      Cdections                                                                           (191,943)
   Net Outlays                                                            $         245,618,751

                                       The orcompanying notes are an integral port of fhese finandstotements.
National Labor Relations Board
Consolidated Statement of Financing
As of September 30,2005 (CY) and September 30,2004 (PY) (in dolims)
                                                                                                                 2004
                                                                                   (CY)                          (PY)

Resources Used to Fiance Activities
   Budgetary Resources Obligated:
      Obligations incurred                                                $            250,042,925
      Less: spendng ouihority from offsetting tdlections/adiustments                      1,448,879
      Net obligations                                                     $            248,594,046

Other Resowes:
   Transfers in/out without reimbursement (+/-)
   Imputed finmcing from cosls absorbed by others (Note 15)                              16,262,l 66
   Net other resources used to finance activities                                        16,262,166
   Total resources used to finance activities                             $          264,8563 2
Resources Used to Finance items Not Part of the Net Cost of Operations
   Change in budgetary resources oUigaied for gooh, servites,
      and benefits ordered but not yet provided (+/-)                     $              (3,078,225)
   Resources that finance the acquisition of assets                                        (118,870)
   Total resources used to finance items not part of
      the net cost of operations                                                         (3,197,095)
   Total resources used to finance the net cost of operations             $          2611659,1 1 7
Components of Net Cost of Operations That Will Not Require or
  Generate Resources In the Current Period

Components Requiring or Generating Resources in Future Periods
   Increase in annual lewe liability                                                        838,314
   Upwardldowmrardreestimates in credit subsidy expense (+/-I
   Increase in exchange revenue receivable from the public
   Other (+/-)                                                                            (200,033)
   Tote1 components of net cost of operations that will
      reqske or generate resources in future periods                                       627,484
Components not Requiring or Generating Resources:
   Depreciation and amortization (Note 6)                                                     70,004
   Total components of Net Cost of Operations that will not
      require or generate resources                                                          70,004
   Total components of net cost of operations that will not
      require or generate resources in the current period                                    697,488
   Net cost of operatiom                                                  $          262,356,605

                                       The otcwnpanying notes ore on integralpurf of these f k m d statements.
Notes to Principal Statements
Note 1. Summary of Significant Accounting Policies
A. Reporting Entity
The Kational Labor Relations Board (NLRR) is an indcpendent Federal Agency established in 1935
to administer the National Labor Relations Act (NLRA). The NLRA is the principal labor relations
law of the United States, and its provisions generally appl?~to private sector enterprises engaged in.
or to activities d'i'ecting. interstate commerce. KLRB's jurisdiction includes the U.S. Postal Service
(other government entities, railroads, and airlines arc not within NLRB's jurisdiction). The NLRB
seeks to serve the public interest by reducing interruptions in commerce caused by industrial strife.
It does this by providing orderly processes for protecting and implementing the respective rights of
employees, employers, and unions in their relations with one another. The NLRB has two principal
functions: (1) to determine and implement. through secret-ballot elections, and free democratic choice
by employees as to whether they wish to be represented by a union in dealing with their employers
and, ifso, by which unlon; and (2j to prevent and remedy unlawful acts, called unfair labor practices,
by either employers, unions, or both. The NLRB's authority is di~idedboth bv law and delegation.
The five-member Board (Board) primarily acts as a quasi-judicial body in deciding cases on formal
records. The General Counsel investigates and prosecutes unfair labor practices before administrative
law judges, whose decisions may be appealed to the Board; and, on behalf of the Board, conducts
xcret-ballot elections to determine whether employees wish to be represented by a union.

B. Basis of Accounting and Presentation
These h a n c i a l statements have been prepared to report the financial position, net cost, changes
In net position, budgetal? resources and reconciliation of net cost to budgetary obligations of the
KLRB as required by the ,4ccountability of Tax Dollars Act of 2602. These financial statements
have been prepared from the books and records of NLRB in accordance with accounting principles
generally accepted in the United States of America (GAAP), and the form and content requirements
of the Office of hlanagement and Budget (OhlR! Circular No. A-136 (formerly Bulletin No. 01-07).
GAG' for Federal entities are the standards prescribed by the Federal Accounting Standards Advisory
Board (FASAB), which is the official standard-setting body for the Federal Government. These finan-
cial statements present proprietary and budgetary information.

OhlR financial statement r e p o ~ i n gguidelines for FY 2005 require rhe presentation of comparative
financial smtements for all of the principal financial statements. KLRR is presenting comparative
FY 2005 financial sratements for the Consolidated Balance Sheet, Consolidated Statement of Net
Cost, Consolidated Statement of Changes in Ket Position, the Combined Statement of Budgetary
Resources, and Consolidated Statement of Financing.

The financial statements should be read with rhe realization that they are fi2r a component of the
United States Government. a sovereign entity. One implication of this is that liabilities cannot he
liquidated without legislarion that provides resources and legal authority.

The accounting structure of Fedzral agencies is designed to reflect both accrual and budgetary account-
ing transacrions. Under the accrual method of accounting, revenues are recognized when earned, and
ixpenses are recognized when a liabilin- is incurred, withnur regard to receipt or payment of cash.
The budgetary accounting principles, on the other hand, are designed to recognize the obligation of
funds according to legal requirements, which in many cases is prior to the occurrence of an accrual
based transaction. The recognition of budgetary accounting transactions is essential for compliance
with legal constraints and controls over the use of Federal funds.

The information as presented on the Statement of Net Cost is based on the programs below:

    Representation Cases are initiated by the filing of a petition-by an employee, a group of
    employees, an individual or labor organizat~onacting on their behalf, or In some cases by an
    employer. The petitioner requests an electmi to determine whether a union represents, nr in some
    cases continues to represent, a majority ot'rhe employees tn an appropriate bargaining unit and
    therefore should be certified as the employees' bargainmg representarivz. Thc role of the Agency is
    to invesrigate the petition and, if necessary, conduct a hearing to determme whether the employees
    consritute an appropriate bargaining unit under the NLRA. The NLRB must also determine
    which employees are properly included in the bargaming unit, conduct the elect~onit' an election
    is determined [o be warranted, hear and decide any post-election objecrinns to the conduct of the
    election and, if the election is determined to have been fairly conducted. to certify its results.

    ULP Cases are initiated by individuals or organizations through the t h g o f a charge with the
    NLRB. If the NLRB Regional Office believes that a charge has merit. it issues and prosecutes a
    complaint against h e charged party, unless settlement is reached. A complaint that is not settled
    or withdrawn is tried before an ALJ, who issues a decision, which may be appealed by any party to
    the Board. The Board acts in such marters as a quasi-judicial body, deciding cases on the basis of
    the formal trial record according to the law and the body of case law that has been developed by
    the Board and the Federal courts.

C. Budgets and hdgetary Accounting
Rudgetaiy accounring measures appropriation and consumption of budgetlspending authority or
other budgetary resources and facilirares complia~lcewith legal constraints and controls over the u x of
Federal funds. Under budgetan reporting principles, budgetary resources are consurrled at the time of
purchase. Assets and liabilities. which do not consume current budgetary resources, are not reported,
and only those liabilities for which valid obligations have been established are considered to consume
budgetary resources.

Transacrions are recorded on an accrual accounting basis. Under the accrual method, revenues are
recognized when earned and expenses are recognized when a liabiliy is incurred, ~7ithoutregard TO
receipt or payment of a s h .

D. Financing Sources
For accounting purposes, appropriations are recognized as financing sc?urces (appropriarions used) at
the time expenses are accrued. Appropriarions expended for general properry planr, and equipmenr are
recognized as expengs when the asset is consumed in operations (depreciation and arnortizarinn).
E. Fund with the US. Treasury
The IiLRB's cash rcceipts and disbursements are processed by the U.S. Treasury (Treasury). The fund
balances with the Treasury are primarily appropriated funds rhat are available ro pay current liabilities
and to finance authorized purchases. Funds with Trrasun represent NLRB's right to draw on the
Trzasury for allowable expenditures. In addlr~on,funds held with Treasury also include escrow funds
that are not appropriated but are Backpap funds thar are the standard Board remedy whenever a viola-
t ~ o nof rhe NLRA has resulted in a loss of employment or earnings.

See Note 2 for addiriorial information on Fund Balance with Treasury.

F. Investments, Net
NLRB invests funds in Federal Government securities for Backpay that are held in the escrou7account
ar Treasury. These funds held in Treasuy are not appropriared funds. Backpap is the standard Board
remedy whene~era violation of the NLR4 has rrsulted in a loss of employment or earnings.

The Federal Government securities include marketable T r e a s u ~market-based securities issued by the
Federal Investment Branch of the Bureau of the Public Debt. hlarker-based securities are Treasury
si.cur~tiesthar are nor traded on any securities exchange, but mirror the prices of marketable securities
with similar rerms.

It is expected that Inwstments will be held unril maturity; rhereiore they are valued at cost and
adjusted for amortization of discounts, iiapplicable. The discounts are recognized as adjustments to
interest income, utilizing the straight-line method of amortization for short-term securities (i.e., bills).

The marker value is estimated as rhe sales price ofthe security multiplied by the bid price as of
September 30, 2005 and September 30, 2004, respectively.

There exists a signed Memorandum of Undzrstariding i h f 0 C ) between the NLRB and the Treasury
establishing the policies and procedures rhat the NLRB and the Treasury agree to follou~for investing
monies in, arid redeeming investments held by, the deposit iund account in Treasury.

See Note 3 h r addirional i~~f'nrmation
                                     on Investnienrs, Net.

G. Advances
Advances consist of amounts advanced by NLRB ior the transir subsidy program and for commercial
paymm r system for postage and penalty mail.

See Note 4 for additional informarion on rhc Advances.

H. Accounts Receivable, Net of Allowance for Doubtful Accounts
,4ccounts Receivable primarify cor~sisrsof hcalrh benefits due rhr NLRB from employees and reim-
bursable receivables due horn Federal Emergency h4anageinrnr Agency. Accounts receivable are stated
net dallowance for doubtful ~ C C O L I I I ~ The
                                              S.  allowance is esrinlated based on an aging of account bal-
ances, past collecrior~expzriinzr, and an analysis of oursraniling accounrs at year end.

See Note 5 h r addirional information on Accounrs Receivable.
I. General Property Plant, and E q u i p n t
General property plant, and equipment consist primarily of telephone systems, computer hardware
and software. The Agency has no real propem.

General property plant, and equipment wirh a cosr of $15,000 or more per unir is capitalized ar cost
and depreciawd using the straight-line method over the useful life. Other p r o p e q items are expensed
when purchased. Normal repairs and maintenance are charged to expense as incurred. The useful life
for this category is five to twelve years. There are no restrictions on the use or convertibility of general
property plant, and equipment.

Izterr~alUse Sofiaw. Internal use software includes purchased commercial off-the-shelfsoftware
(COTS), contractor-developed software, and sofmare that was internally developed by Agency
employees. Internal use sohrare is capitalized at cost if the acquisition cosr is S 100,000 or more.
For COTS sofixare. the capitalized costs include the amount paid ro the vendor for the software;
for contractor-developed sofhare it irlcludes the amounr paid to a contrdcror ro design, program,
install, and implement the sofmrare. Capitalized costs for internally developed sofiware include the
full cost (direct and indirect) incurred during the software development stage. The esrimated useful
life is two to five years for calculating amorrization of software using the straight-line method,

See Note 6 for additional information on General Property Plant, and Equipment, Net.

J. Non-Entity Assets
siswrs held by NLRB that are not available ro S L R B for obligation are considered non-entin7 assets.
NLRB holds non-entity assets for Backpay.

See Notes 8, 9 and 16 for additional information on Non-Entiry Assets.

K. Liabilities Not Covered by Budgetary Resources
Liabilities represent rhe amount of monies or other resources that are likely to he paid by NLRB as the
resulr ( 4 a transaction or event thar has already occurred. N o liabilir?;can be paid by NLRR ab&nt an
appropriation. l,iabilitia for which an appropriation has not been enacted and for which there is no
certainty that an appropriarion will be macted are classified as Liabilities Not Covered by Budgetary
Resources.

Intrugovermentd
The 1J.S. Deparrment of Labor (DOL) paid Federal Emplqees Curnpensatic)n Aci (FEC,\) benefits
on behalf of NLRR which had nor been billed or paid by NLRA as of Seprember 36, 2005 and 2004,
respect ively.


Federal Employees Workers' Compensation Progrim
The FEC4 provides income and medical cost protecrion to ccwered Federal civilian employees injured
on the job, ro employees who have incurred work-related occupational diseases, and to beneikiaries of
employees whose deaths are attriburable to job-relared injuries or occupational disrases. The FECA
prvgram is adminisrcred by DOL, which pays d i d claims and subsequently seeks reimbursement
f r ~ x nNLRR for rhese paid claims.
The FECli liability consists of two componenrs. The first component is based on actual claims paid
bv D O L bur not 17etrein1bursc.d by NLRB. NLRB reimburses DOL for the amount of the actual
claims as funds are appropriated for this purpose. There is generally a two to three year lag between
payment by D O L and reimburwment by NLRR. As a result, NLRB recognizes a liability for the
actual claims paid by DOL and to be reimbursed by NLRR.

The second component is the estimated liabiliry for future benefit payments as a result of past events.
This liability includes death, disjbility, medical, and miscellaneous costs. NLRB determines this compo-
ncnr annually, as of September 30. using a method that considcrs hisrorical benefit payment patterns.

The KLRB uses rhe merhodology of reviewing the ages of the claimant on a ase-to-case basis (because
of rhe small number of claimants) to evaluare rhe estimated F E U liabiliry. The determination was
made to use the life expectanc?~of claimants of 80 and 84 years for male and female, respectively.

See Note 8 for additional information on the FECA liability.


Other
Accrued annual leave represents the amount of annual leave earned by NLRB employees but not
yet taken.

See Note 10 for additional information on Annual Leave.

L Contingencies
Contingencies are recorded when losses are probable, and the cost is measurable. When an estimate of
contingent losses includes a range of possible cosrs, the most likely cost is reported; where no cost is
more likely than any other, the 1c)west possible cost in the range is reported. This item will normally
be paid from appropriared funds.

See Kote 17 for additional informarion on Contingencies.

NI. Unexpended Appropriations
Unexpended appropriations represent the amount of NLRA's unexpended appropriated spending
authority as of rhe fiscal year-end that is unliquidated or is unobligated and has not lapsed, been
rescinded, or withdrawn.

N. Annual, Sick, and Other Leave
Annud mil Sick 1ewe Proyam
Annual lea~clis accrued as n is earned by emp10yt.e~and 1s 111cludedin personnel compensation and
benefit costs. Each year, the balance in the accrued annual leave liablllty account is adjusted to reflect
current pay rates. Slck 1edw and orher t p e of nonvested Izave are expensed as taken.

See Note 10 for additional information on Annual Leave.
0. Life Insurance and Retirement Plans
Federal EnTployees Grorrp Life lwwmce (FEGL1) Progtwn
Most NLRB employees are entitled to participare in the FEGLI Program. Participating employees can
obtain "basic life" term life insurance, with the employee paying nvo-thirds ofthe ccm and the NLRA
paying one-third. Additional coverage is optional, to be paid fully by the employee. The basic life
coverage may be continued into retirement if certain requirements arc met. The Office of Personnel
Management (OPhl) administers this program and is responsible for the reporting of liabilities. For
each flscal year. OPM calculates the US.Government's semice cost for the posr-retirement portlon of
the basic life coverage. Because the NLRB's contributions to the basic life coverage are h11y allocated
by OPM to the pre-retirement portion of coverage, the NLRB has recognizrd the entire service cost of
the post-retirement portion of basic lif; coverage as an imputed cost and imputed financing source.

Retirement Ptugroms
NLRB employees participate in one of two rrrirement programs, zither the Civil Service Renre~nent
System (CSRS) or the Federal Employees Retirement System (FERS), which became effective on
January 1. 1987. Most NLRB employees hired after December S 1. 1953, are automatically covered
by FERS and Social Security. Employees hired prior to January 1, 1984, could elect to either join
FERS and Social Security or remain in CSRS. Employees covered h-y CSRS are not subject to Social
Security taxes, nor are they entitled to accrue Social Security benefits for wages subject to CSRS.

For FERS employees, NLRB contributes an amount equal to one percent afthe employer's basic pay
tcl the tax deferred Thrifi Savings Plan and matclles employee contributions up to an additional four
percenr of pay. The maximum percentage of base pay that an employee participating in FERS may
contribute is 15 percent in calendar year (CY) 2005 to this plan. Employees belonging to CSRS may
contribute up to 10 percent oftheir salary in CY 2005 and receive no matching contrib~ltionfrom
NLRB. The maximum amount that eiher FERS or CSRS employees may conrribure co the plan is
$14,000 in CY 2005. The sum of the employees' and NLRB's contributions are transferred to the
Federal Reriremenr Thrift Investment Board.

The O P M is responsible for reporting assers, accumulated plan benefits, and ~lnfundedliabilities,
if any, applicable to CSRS participants and FERS employees governmenr-wide, ~ncludingKLRB
employees. The NLRR has recognized an imputed cost and imputed fmanclng source for the dif-
ference between the estimated service cost and the contributions nude by the NLRR and covered
CSRS employees.

The NLRF does not report on its financial statements FERS and CSRS assets, accumulated plan
benefits. or unfunded liabilities, if any, applicable to its employees. Re1.mrting such amounts is the
responsibility of OPht. The portion of the current and estimated f~irureoutla!~s fur CSRS not paid
by NLRB is, in accordance with Statement of Federal Financial Accounting Standards No. 5 ,
Accounting for Liabilities of rhe Federal Government, included in KLRB's financial staremenrs as
an imputed financing source.

Liabilities for future pension payments and cothrr futurr payments for retirrd employees who partici-
pate in rhe Federal Employees Health Renrfits and the FEGLI programs are reported hv OPhl rather
rhan NLRA.
P. Operating leases
The NLRB has no capital lease l i a b i l i ~or capital leases. Operaring leases consist of real and personal
property leases with GSA. The real properry leases are for NLRB's Headquarters and Regional Offies
and the personal property Irascs are h r GS,4 cars. The GSA cliarges KLRR lease rates that approxi-
mate commercial rates h r comparable s p x i .

See Note 12 for additional infurmation on Operating Leases.

Q. Net Position
The NLRB's net position consists of unexpended appropriations and cumulative results of operations.
Lrnexpended appropriations represenr appropriated spending authoriy that is unobligated and has
nor been withdrawn by Treasury. and obligations that have nor been paid. Cumulative results of
operations represenr rhe excess of financing sources over expenses since inception.

R. Use of Management Estimates
The preparation r>f the accompanying hnancial statements in accordance with accounting principles
generally accepred in thi. United Stares i,i',4nlerica requires management to make certain estimates and
assumptions that directly affect the results of reported assets, liabilities, revenues, and expenses. Actual
results could differ from these estimates.
Note 2. Fund Balance With Treasury
Treasury performs cash management activities for all Federal agencies. The net activity represents
Fund Balance with Treasury. The Fund Balance with Treasury represents the right of the NLRB to
draw down funds from Treasury for expenses and liabilities. Fund Balance with Treasury by fund
Vpe as of September 30, 2005 and September 30,2004 consists of the following:


Fund Balante with Treasury by Fund Type:

                              FY 2005      Non-Entity                FY 2004       Non-Entity
[Dollars in thousands)     Entity Assets    Assets       Total     Entity Assets    Assets              Total

General Funds                 $24,222           -       $24,~~        $20,794           -               $20,794

Escrow Funds                       -          1,428       1,428             -         2,041               2,041
Total Fwd Bdance
wifh Treasury                 $24,222        $1,428     $25,650       $20,794        $2,041             $22,835



The status of the fund balance may be classified as unobligated available, unobligated unavailable,
and obligated. Unobligated funds, depending on budget authority. are generally available ior new
obligatjons in current operations. The unavailable balance includes amounts appropriated in prior
fiscal years, which are not available to fund new obligations. The obligated but not yer disbursed
balance represents amounts designated for payment of goods and services ordered but not yet
received or goods and services received bur for which payment has not yet been made.

Obligated and unobligated balances reported for the status of fund balance with Treasury do not
agree with obligated and unobligated balances reported on the Combined Statement of Budgetary
Resources because the Fund Balance with Treasury includes items for which budgetary resources
are not recorded. such as deposit funds and miscellaneous receipts.

Status of Fund Balance with Treasury as of September 3 0 , 2005 and September 30, 2004 consists
of the following:


Fund Balance with Treasury by Availability:

(Dollars in thousands)                                            FY 2005                     fY 2004
Undiated Balance

   Available
   Uncnrailable

   Obligated bdance not yet disbursed

Totals
Note 3. Investments, Net
Investments in Treasury Securities:
The NLRB invests Backpay funds thar are authorized by the Regional Compliance Officers and
other management officials in market-based Treasu?~securities issued by the Federal Investment
Branch ofrhe Bureau of Public Debt.

In FY 2005, the maturity value of the investment was $2 million as compared to FY 2004 of
$5 million. The decrease w7asa result of maturity of securities rhat were disbursed to discriminatees.

There exists a signed MOU between the NLRB and the U.S. Treasury (Treasury) establishing the
policies and procedures that the NLRB and the Treasury agree to follow for investing monies in,
and redeeming investments held by, the deposit fund account in the Treasury.

Investments as of September 30, 2005 and September 30.2004 consist of the following:


Investment Value at Invesfment Mankef Value:

                                  Investment       Value at       Investment       Market Value
(Dollars in thousands)               Type          Maturity           Net           Disdosure
FY 2005 US. Treasury Securities   Marketable       S 1,665          S 1,652           $ 1,652
FY 2004 US. Treasury Securities   Marketable       S 4,995          S 4,987           S 4,987

For FY 2005 and 2004, the discount on the marketable securities amounted to $13 and $8,
respectively (Dollars in thousands).


Note 4. Advances
lntrogovemmental
Intragovernmenral Advances of $20,848 represent advances to the United States Postal Service
(USPS) for penalt). mail and the Department of Transportation (DOT) for the transit subsidy
as of September 30, 2005. The USPS advance for September 30. 2005 mas $20,848 and zero
h3r September 30. 2004. The DOT advance for Septernbrr .3e, 2005 was E r o and $2,952 for
September 30, 2004 (Amounts in dollars).

Commercial
Advances of $14.447 as of Seprember 30, 2005 and $4.773 for September 30, 2004, represent
advances to a commercial vendor for postage (i\mounts in dollars).
Note 5. Accounts Receivable, Net of Allowance for Doubtful Accounts
The inrragovernmental accounts receivable for FY 2005 is the amount due from the Federal
Emergency Management Agency (FEhlA) for NLRR's employees assisting FEhM with hurricane
Gtrina's destruction. Accounts receivable at each fiscal year end consisted of the following

(Dollars in thousands)                                  FY 2005               FY 2004


    Accounts Receivable                                $        37                    0
Total lntrogwernmenfd

With the Public
    Aaounts Receivable

    Allowance DoubfM Accounts

Toial Accounts Receivable, Net-Public                           54                   47

Accounls R e c e k a L N e t




Note 6. General Property Plant, and Equipment, Net
General properry plant, and equipment consist of that property which is used in operations and
consumed over rime. The table below summarized rhe cost and accumulated depreciation for general
property plant, and equipment.

Depreciation expenses for September 30, 2005 were $70.004 and 975,986 for September 30, 2004
(,4mounts in dollars).

                                                           FY 2005            FY 2004
                                                     General Property      General Property
(Dollars in thousands)                             Pbnt, and Equipment   Plant, and Equipment
Cost                                                    $     1,529          S    1,694

Actumula~edDepreciation                                      11,403)              11,616)

Wet Book Vdue                                           $      126            S      78
Note 7. Intragovernmental Accounts Payable
The FY 2005 Consolidated Ralance Sheet is being presented to include a change to the amount
shown h r FY 2004 intragovernmental accounts payable I-;x comparative financial statements.
The FY 2004 amount for intragovernmental accounts payable was included in the (non-Federal)
accounts payable of $6,237,086 and was not separately shown as intrapovernmental as required
bv OMB Circular Ko. A-136 (formerly Bulletin No. 01-09). The accounts pavable (non-Federal)
f i r FY 2004 is being reclassified to sl&v the portion for non-Federal of$4.i28.853 and intra-
governmental of $1,508,233 on the FY 2005 Consolidared Balance Sheet (Amounts in dollars).

Note 8. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources represent amounts owed in excess of available congres-
sionally appropriated funds or other amounts. The custodial liability represents amounts collected
from the public for court costs, freedom of information requests and other miscellaneous amounrs
that must be transferred to the u.S. Treasury. The composition of liabilities not covered by budget-
ary resources as of September 30, 2005, and September 30, 2004, is as follows:

(Dollars in thousands)                                     FY 2005                FY 2004




Total lntragovernmenfd

Ertimated Future-FECA

Accrued k n u d Lewe

Backpay Setdement Due to Others

Custodial Liability

Total Liabilities Not Covered by Budgetary Resowtes

Total liabilities Covered by Budgetary Resources

Total Liabilities                                         $ 32,223                S 35,185
Note 9. Non-Entity Assets
Non-entity assets, restricted by nature, consist of miscellaneous receipt accounts and Rackpay srrtle-
ment due to others. These amounts represent cash collected and accounts receivable (net of allowance
for doubtful accounts). The miscellaneous receipts represent court costs, frecdom of information
requests and closed out Backpay cases that must be transferred to the U.S. Treasury. The Backpay
settlement due to others represents monies to be disbursed to discriminatees at a later date. The
composition of non-entity assets as of September 30, 2005 and September 30,2004, is as follows:

(Dollars in thousands)                                      FY 2 0 0 5             FY 2 0 0 4
Non-Entity Assets


    Fund Bdance with Treasury                              $         549           $         160
   Accounts Receivable                                                -                      -
    Totd lntragovernmental
    Bakpay Settlement Due to Others

Total Non-Entity Assets
Entity Assets
Total Assets                                               $      27,554           S 27,954



Note 10. Cumulative Results of Operations
(Dollars in thousands)                                         FY 2 0 0 5              FY 2 0 0 4
FECA paid by DOL
FECPl-Unhnded
Estimated Future FECA
Accrued Annud Leave
General Property Plmt, and Equipment, Nef
Other
Cumulative Results of Operations
Note 1 1. Intragovernmental Costs and Exchange Revenue
For the intragovernmenral costs, the buyer and seller are both Federal entities. The earned revenue is
the reimbursable costs from other Federal entities. NLRB provided administrative law judges' services
to other Federal entities. There is no exchange revenue with the public.

(Amount in dollars)                                     FY 2005                      M   2004
Resolve Representation Cases

   lnhagovermentd Costs

   Costs with the Public

Total Net Cost-Resolve     Representation Cases        38,440,183                   39,862,438


Resolve Unfair Labor Practices

   lntragwermentd Costs

   Costs with the Public

Total Net Cost-Resolve Unfair Labor Practices         223,9 16,422                 221,880,171


Other

   Inlragovermentd Costs

   Less: intmgovernmentd Earned Revenue

   Net lntragovernmentalCost                                   -                                -
Total Net Cost--Other                                          -                                -
Net Cosf of Operations                                $262,356,605                 $261,742,609




Note 12. Operating Leases
GSA Real Property. hfost of the NLRR's facilities are rented from the General Services Administra-
tion (GSA), which charges rent that is intended to approximate commercial rental rates. The terms
ofthe NLRR's occupancy agreements (0-4)with GS24will vary according to whether the underlying
assets are owned bv GSA (or another Federal Agency) or rented by GSA from the private sector. The
NLRB has O h wjth GSA. which sers forth ternis and conditions for the space the Agency will occupy
for an exended period of time. Included within the 0 A arc notification requirements for the Agency
to release space, that are generally 120 to I SQdays. For purposes of disclosing h t u r e operating lease
paunents in the table below, Federally owned leases ,Ire included in years 2006 through 2010.

Rental expenses fbr operating leases as of September 30, 2005 were $26,866,735 for Agency lease
space and $1.432593 h r Agency building security. For FY 2C!!14 the GS,4 operating lease costs was
$27,125,204 and the building securin portion was $1,146,691. As of FY 2005. the Agency is required
to show separately the paymenr to GSA fbr the operating leas and the payment to the Department
of Homeland Security for the building security.

Personal Property. The NLRR leasrs personal p r o p e q from GSA. The terms for GSA leases
frequentlv excced one year, althvugh a definite l a s e period is not always specified. For purposes of
disclosing future operating lease payments in the table below. GSA personal property leases are
included in years 2006 through 2010. The estimated future operating lease payments for GSA and
private personal property leases are based on a 3 percent increase over the 200 5 actual personal
property rental expense.

Rental expenses for operating leases as of September 30. 2005 and 2004 were $122,014 and
$1 1 1,945, respectively.

The aggregate of the NLRA's estimated real and personal property future lease payment to GSA are
presented in the rable bdow and it does not include building security. The NLRB does not have any
commitment fbr future lease payments after five years.

(Dollars in thousands)                          GSA Real              Personal
Fiscal Year                                     Property              property               Total
2006                                        S      28,113         S         126          $     28,239




After 5 Yews                                          -                     -                        -
Total Future Lease Costs                    S     148,109         $        670           s    148,779



Note 13. Appropriations Received
The NLRR received $249,860,000 and $242,632,969 (net of rescissionj in warrants for the fkal years
ended September 30, 2005 and 2004. respectively. The rescissions were $2,015,000 and $1,440,03 1
h r FYs 2005 and 2004, respectivelv. The amount shown on the Combined Statement of Budgetary
Resources under caption "Permanently not availahla" for FY 2005 in the amount of$3.218,386 is
a combination of the rescission of $2,015,0&1 and the cancelled appropriation for IT 2000 in the
amount of $1,203,356. The amount of S2,133,184 for FY 2004 is a combination of the rescission
of S1,440,03 1 and FY 1993 cancelled appropriation of $754,153.
Note 14. Statement of Budgetary Resources
The Combined Statement of Budgetary Resources provides information about how budgetary resources
w7eremade available as well as their status at the end of the period. It is the only financial statement
exclusively derived from the enriry's budgetary general ledger in accorciance w~irlibudgetary accounting
rules that are incorporated into generally accepted accounting principles for the Federal Government.
The total Budgetary Resources of 5254,946.65 1 as of September 30, 2005 and $247,515,123 as of
September 30, 2004, includes new budget authority, unobligated balances at the beginning of the year,
spending authoriry from ofTsetting collections, recoveries of prior year obligations and permanently not
available. NLRB's unobligated balance available ar September 30,2005, was $455357 and at Septem-
ber 30. 2004 was $392,505.

Apportionment Categories of Obligations Incurred. The NLRB's obligations incurred as of
September 30, 2005 and September 30, 2004 by apportionment Categorv A and B is shown in the
followring table. Category A apportionments distribute budgetary resources b?~fiscal quarters and
Category B apportionments typically distribute budgetay resources by activities, projects, objects or
a combination of these categories.

(Dollars in thousands)                             Apportioned                Not Subject to
FY 2005                              Category A                  Category B   Apportionment        Total
Obligations Incurred:
Direct                               $   236,982             $       12,958   S        (101    S    249,930
Reimbursable

Total Obligatiom lntuned


(Dollars in thousands)                             Apportioned                Not Subject to
FY 2004                              Category A                  Category B   Apportionment        Total
Obliytions Intured:
Direct
Reimbursable
Total Obligations i ~ u r r e d
Note 15. lmputed Financing
OPM pays pension and other future retircmrnt benefits on hrhalf of Frderal agencies for Federal
employees. OPA4 provides rates for recording rhr estimated cost of pension and other future retire-
ment benefits paid by OPhl on behalf of Federal agencies. The costs ot' these benefits are reflected as
imputed financing in the consolidated financial statements. Expenses of the NLRB paid or to be paid
hv other Federal agrncles at September 30, 2005 and 2004 consisted oT:-

lDolhrs in thousands)                                                          FY 2005                 FY 2004
Office of Personnel Management:

Pension Expenses

Federal Employees Health Benefits

Federal Employees Group life Insurance P r o g m

Total Imputed Financing                                                       S     16,262             $   15,663




Note 16. Backpay Checks Held in HLRB Regional Offices
The NLRB may use Backpay as a remedy to settle a ULP. The Backpay may be disbursed by three
different methods: (1) the respondent prepares the Aackpay and disburses it directly to the discrimi-
naree(s); (2j the respondent prrpares the Rackpay and gives the check(s) to a NLRB Regional Office
to deliver to the discriminatee(s); and (31 thc respondent makes the Rackpay payable to the NLRB,
who deposits the chrck and then issues US. Treasury checks to the discnminatee(s).

This footnote identifies the number and dollar value of checks that are received in the Regional
Offices that are made payable to discriminatees. The NLRB has a fiduciay rype of responsibility
to safepard these checks until they are successfully disburssd to the discriminatee(s). It should be
noted that it might take months ro successful1~-deliver the Backpay. due to the length of time it
may take to settle cases and then obtain current addresses for the discriminatee(s).

                                                              FY 2005                                  FY 2004
                                                   Number                   Amount           Number                     Amount
Checks on Hmd, Beginning of Period                    921               S         755           102                 $       323
Checks Received                                     9,622                     21,015          7,560                       17,374
Less Checks Distributed                            110,1541                  (21,251)         (6,741                     (16,942)
Net Chonge in Checks on Hand                         (5321              S         (2361         819                 S       432
Chedts on Hmd a1 End of Period                        389               S         519           921                 $       755
Note 17. Contingencies Liabily
The NLRB is a party to several dlreatened or pending litigation claims. NLRR management has
estimated that claims from $200 to 5500 thousand dollars have a reasonable possibility of loss
(the chance of loss is less than probable, hut more than remote). The Agency has and will continue
to vigorously contest these claims. In the opinion of NLRB's management, the ultimate lrsolurion
of pending litigation will not have a material effect on the NLRB's financial statements.

Note 18. Obligation Contingency
A FY 2005 obligation, totaling approximately $1.5 million for contractual information technology
and end-user support services, is currently under review by NLRB management and the NLRB Office
of Inspector General. Final determination could have a direct effect upon the amounts reported in the
Srawment of Rudgetay Resources and the Consolidated Statement of Financing.
                                                                                        APPENDIX A


         UNITED STATES GOVERNMENT
         Nurbnal Labor Relations Board
         Division ofA&?ti&traiion
         Memorandum



TO:       Jane E. Altenhofen
          Inspector General

FROM:


DA-TE:    October 3 1,2005

SUBJECT: Response to Draft Audit Report - NLRB Fiscal Year 2005 Financial     Statements


          We have reviewed the Audit Report submitted by Carmichael Brasher Tuvell &
          Company (Carmichaei) and are pleased that the FY 2005 audit of the NLRB's financial
          statements has resulted in an unqualified opinion. We are in agreement with the findings
          of the report.

         In Appendix A, Carmichael identified one reportable condition related to the Agency's
         information technology hnction that could adversely impact the Agency's ability to
         accumulate, process, and report information critical to the NLRB's mission and
         programs. The one reportable condition was that the Agency has not yet implemented a
         disaster recovery plan. This reportable condition was also noted in the FY 2004 audit.
         Carmichael recommended that the Chief Infomation Officer (CIO) implement a disaster
         recovery plan in accordance with the standards issued by the National Institutes of
         Science and Technology (NET).

         We are in agreement with this recommendation. The CIO has budgeted funds in
         FY 2006 to initiate a disaster recovery plm. The expected completion date for this
         project is the fourth quarter of FY 2006.

         If you have any questions, please do not hesitate to contact me.



         cc: Board
             Acting General Counsel
                                                                                         APPENDIX B


         UNITED STATES GOVERNMENT
        Nniionai Labor Relations Board
        Division ofAdminisrrafion
        Memorandum



                                              December 12,2005

TO:      Jane Altenhofen
         Inspector General

FROM:    Gloria Joseph, Director of Administration

SUBJECT: Comments on Draft Management Letter on            of NLRB's FY 2005
         Financial Statements


         This is in response to your memorandum dated December 2,2005, in which you
         requested comments on the draft Management Letter covering the audit of the Agency's
         FY 2005 financial statements. In your memo, you requested that we also indicate our
         agreement or disagreement with each of the report's findings and recommendations.

         We have no comments with respect to the findings of the report.

         Our comments regarding the report's recommendations are as follows:

         #1- Momentum Financial System

         We recommend that the NLRB's Finance Branch Chief review the controls listed in
         the audit report to ensure that all are properly implemented by the NLRB.

         We agree with this recommendation. The Finance Branch Chief has reviewed the
         controls listed in the audit report and has already begun the work necessary to implement
         those recommendations.

         #2 - Jntragovernmcntal Transactions Documentation

         We recommend the Finance Branch Chief require documentation of receipt of
         goods and services from the ordering office for IPAC transactions.

         The Finance Branch Chief has already instituted procedures requiring that the proper
         documentation to support all IPAC charges is obtained fiom an ordering ofice. The
         documentation is then attached to the IPAC report.
                                                                               APPENDIX B

Page Two
Jane Altenhofen



#3 - Prior Year Recommendations (Open Prior Year Reportable Conditions)

The Finance Branch implement its plan to migrate the Regional Office
Budgeting System (ROBS) to Momentum by the end of Fiscal Year 2005.

It was the Agency's original intent to have this recommendation completed by the end of
FY 2005, The plan had been to implement the migration from ROBS to Momentum in
conjunction with the implementation of the new eTravel system which agencies are
required to migrate to by the end of FY 2006. Training for the regional o E c e managers
on both systems was scheduled for April, June, and August 2005. However, the Agency
was informed by the system provider early in Calendar Year 2005 that the eTravel system
would not be ready in time for the training. It was determined that it would not be cost
effective to bring the office managers from each Region to Headquarters to train them on
Momentum in FY 2005, and then have to bring them back in to train them on eTravel in
FY 2006. Once the eTrave1 system is available for Agency use, the office managers will
be provided training on both systems at Headquarters. It is expected that this
recommendation will be completed in FY 2006.

Develop and implement internal procedures for debtors to challenge debt
and establish regulations and delegations of authority for compromising
or terminating actions for the collection of debt.

As stated in the management letter, the Agency has already developed the internal
procedures allowing debtors to challenge debt as recommended by the auditors and has
updated the delegations of authority. The recommended debt collection regulations have
been drafted and await Board approval. Once approval is obtained, they will be
published in the Federal Register. We will continue our efforts to obtain the necessary
approval.


cc: The Board
    Acting General Counsel
